WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7380

Michael Eugene Wyatt John Sutton, Warden
(Petitioner) Me (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO Ionly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
Tam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: AF Cs Cet

Date: 3/16/21

(Type or print) Name Gregory A. Ott
© wr. O Ms. O Mrs. O Miss

Firm California Attorney General's Office

Address 455 Golden Gate Ave., Suite 11000

City & State | San Francisco, California Zip 94102
Phone (415) 510-3838 Email Gregory.Ott@doj.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Mary Elizabeth Pougiales, Counsel for Petitioner
ce:
